NO.
IN THE
SUPREME COURT OF THE UNITED STATES

ELJAROD LAWSON, PETITIONER
VS.
STATE OF CALIFORNIA, RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL
FIRST APPELLATE DISTRICT, DIVISION THREE
PETITION FOR A WRIT OF CERTIORARI
PETITIONER’S MOTION TO PROCEED ON WRIT OF
CERTIORARI IN FORMA PAUPERIS
MARK D. GREENBERG
Attorney at Law
California State Bar No. 99726
484 Lake Park Avenue, No. 429
Oakland, CA 94610
(510) 452-3126
Counsel of Record for Petitioner,
ELJAROD LAWSON

MOTION TO PROCEED ON WRIT OF CERTIORARI
IN FORMA PAUPERIS
Pursuant to Rule 39 of this Court, Petitioner Eljarod Lawson requests leave
to file the accompanying Petition for Writ of Certiorari without prepayment of fees
or costs, and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the California State Courts pursuant to California Penal Code section 1240.
A copy of the California Court of Appeal order appointing undersigned
counsel for the state direct appeal is attached to this motion.
Dated: January 4, 2021
Respectfully submitted,

/s/ Mark D. Greenberg
Attorney for Eljarod Lawson

2

ORDER OF THE CALIFORNIA COURT OF APPEAL
APPOINTING COUNSEL FOR INDIGENT APPELLANT

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION 3

THE PEOPLE,
Plaintiff and Respondent,
v.

A154481
(Alameda County
Super. Ct. No. 619332)

Eljarod Lawson,
Defendant and Appellant.

Order Appointing Counsel
By the Court:
Upon the recommendation of the First District Appellate Project, Mark Greenberg
(State Bar No. 99726) is appointed to represent appellant Eljarod Lawson in this Court on
an independent basis.
If the record has not yet been transmitted, the Clerk of the Superior Court is directed
to send the record on appeal to:
Mark Greenberg
484 Lake Park Ave.
PMB 429
Oakland, CA 94610.

Appellant's Opening Brief shall be filed forty (40) days from either the date of the
filing of the record or from the date of this order, whichever is later.

Appellant:

Appointed Counsel:

Eljarod Lawson (BG4750)
San Quentin State Prison
San Quentin, CA 94974

Mark Greenberg
484 Lake Park Ave.
PMB 429
Oakland, CA 94610

